No. 20-

 

 

In THE
Supreme Court of the Anited States

M&T BANK CORPORATION, et al.,

Petitioners,
v.

DAVID JAROSLAWICZ, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 6,624 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 15, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
